   Home » Briefing Room » Justice News


                                                             I
                                          Department of Justice

                                            Office of Public Affairs
          FOR IMMEDIATE RELEASE                                             Friday, January 25, 2013

                 Financial Consultant Extradited to the United States for Alleged
                        Scheme to Defraud the U.S. Export-import Bank

Manuel Ernesto Ortiz-Barraza, an independent financial consultant, was extradited to the United States today
for his alleged role in a scheme to defraud the Export-Import Bank of the United States (Ex-Im Bank) of over
$2.5 million, announced Assistant Attorney General Lanny A Breuer of the Justice Department's Criminal
Division, U.S. Attorney for the Western District of Texas Robert Pitman and Osvaldo L. Gratacos, Inspector
General of the Ex-Im Bank.

Ortiz-Barraza, 56, was charged in an indictment unsealed on Oct. 19, 2011, in the Western District of Texas with
one count of conspiracy to commit wire and bank fraud, three counts of wire fraud and one count of bank fraud
for his alleged role in a scheme with several others to defraud the Ex-Im Bank. Based on a provisional arrest
warrant, Mexican authorities arrested Ortiz-Barraza in Mexico on Feb. 13, 2012, and he has been awaiting
extradition to the United States, a process which was recently finalized by the Mexican courts.

According to the U.S. indictment and court documents, Ortiz-Barraza and his co-conspirators allegedly
conspired to obtain Ex-Im Bank guaranteed loans through banks by creating false loan applications, false
financial statements and other documents purportedly for the purchase and export of U.S. goods into Mexico.
Ortiz-Barraza and his co-conspirators allegedly falsified shipping records to support their claims of doing
legitimate business and did not ship the goods that were guaranteed by the Ex-Im Bank. After the loan
proceeds were received, Ortiz-Barraza and his co-conspirators allegedly split the loan proceeds among
themselves. As a result of the alleged fraud, the conspirators' loans defaulted, causing the Ex-Im Bank to pay
claims to lending banks on a loss of over $2.5 million.

The charges and allegations contained in the indictment are merely accusations and the defendants are
presumed innocent unless and until proven guilty.

The Ex-Im Bank is an independent federal agency that helps create and maintain U.S. jobs by filling gaps in
private export financing. The Ex-Im Bank provides a variety of financing mechanisms to help foreign buyers
purchase U.S. goods and services.

The case is being prosecuted by Senior Litigation Counsel Patrick Donley and Trial Attorney William Bowne of
the Criminal Division's Fraud Section and Assistant U.S. Attorney Steven Spitzer of the Western District of
Texas, El Paso Division. The case was investigated by the Ex-Im Bank Office of Inspector General, Homeland
Security Investigations in El Paso, under the leadership of Acting Special Agent in Charge Dennis Ulrich;
Internal Revenue Service-Criminal Investigation in Washington, D.C, under the leadership of Special Agent in
Charge Rick A. Raven; and the U.S. Postal Inspection Service in Washington, D.C, under the leadership of
Inspector in Charge Daniel S. Cortez. Substantial assistance was provided by the U.S. Marshals Service and the
Criminal Division's Office of International Affairs in Washington, D.C. The Department of Justice is
particularly grateful to the government of Mexico for their assistance in this matter.

13-110                                                                                        Criminal Division
